No. _ __
INTHE

~upreme C!tourt of tbe Wniteb ~tate!i
NATIONAL AsSOCIATION OF BROADCASTERS, ET AL.,

Applicants,
V.
PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 7th day of February, 2020, I caused a copy of the Application for an
Extension of Time Within Which to File a Petition for a Writ of Certiorari to the United
States Court of Appeals for the Third Circuit to be served by third-party commercial
carrier on the counsel identified below, and caused an electronic version to be
transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW

Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for the United States and FCC

Yosef Getachew
COMMON CAUSE

805 15th St, NW, Suite 800
Washington, DC 20005
(202) 736-5707
ygetachew@commoncause.org

Counsel for Common Cause

Angela J. Campbell

David D'Alessandro
Dennis Lane

INSTITUTE FOR PUBLIC REPRESENTATION
GEORGETOWN LAW

STINSON LEONARD STREET

1775 Pennsylvania Ave, NW, Suite 800
Washington, DC 20006
(202) 785-9100
david.dalessandro@stinson.com
dlane@stinson.com

600 New Jersey Ave, NW, Suite 312
Washington, DC 20001
(202) 662-9541
campbeaj@law.georgetown.edu

Andrew J. Schwartzman
Counsel for Multicultural Media Telecom INSTITUTE FOR PUBLIC REPRESENTATION
and Internet Council and National
GEORGETOWN LAW
1341 G St, NW, 5th Floor
Association of Black Owned
Broadcasters
Washington, DC 20005
(202) 241-2408
David E. Mills
AndySchwartzman@gmail.com

COOLEY

1299 Pennsylvania Ave, NW, Suite 700
Washington, DC 20004
(202) 776-2865
dmills@cooley.com

Counsel for Prometheus Radio Project,
et al.
Jack N. Goodman

LAW0FFICESOFJACKN. GOODMAN

1200 New Hampshire Ave, NW,
Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com

Counsel for Cox Media Group LLC
Jessica J. Gonzalez
Matthew F. Wood
FREE PRESS

1025 Connecticut Ave, NW, Suite 1110
Washington, DC 20036
(310) 809-2577
jgonzalez@freepress.net
mwood@freepress.net

Counsel for Independent Television
Group
Cheryl A Leanza

BEST BEST & KRIEGER

2000 Pennsylvania Ave, Suite 5300
Washington, DC 20006
(202) 785-0600
cheryl.leanza@bbklaw.com

Counsel for Free Press

Counsel for Office of Communication Inc.
of the UCC, et al.

2

